                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMOFUNDUM

11   Case Number: A03120075                                                                      Page 1 of 1



           A proactive review of various conference grants identified two concerns regarding a grant1to a
           mid-eastern universitg that required investigation. The first concern involved travel expenses
           for the plenary session speaker. The funds in the conference grant were awarded as support for
           scholarships for student participation and for a student consortium that preceded the conference.
            However, NSF funds were used to pay for the plenary speaker's travel expenses and lodging.
           The second issue involved the apparent double billing of one student's scholarship to the award.3


           In response to our inquiry, the university told us it had mistakenly billed the plenary speaker's
           expenses to the NSF award rather than an award from another federal agency.4 It reversed those
           charges. It told us that a mistake in check processing had caused the double billing of the
           student's scholarship to the NSF award. It remitted a check for that amount to NSF.

           The university has taken steps to correct the incorrect charges to the NSF award, and there is no need
           for further review.

           Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
